          Federal Housing Finance Agency
              Office of Inspector General




    Kearney & Company, P.C.’s
   Independent Evaluation of the
 Federal Housing Finance Agency’s
Information Security Program-2013




  Audit Report  AUD–2014-001  October 3, 2013
FHFA OIG issued the subject report on October 3, 2013. FHFA is required under the Federal
Information Security Management Act of 2002 (FISMA) to have an annual independent
evaluation of its information security program.


AUDIT OBJECTIVE: The objective of this performance audit was to evaluate the effectiveness
of FHFA’s information security program and practices and respond to the Department of
Homeland Security’s FY 2013 Inspector General Federal Information Security Management Act
Reporting Metrics.


Because information in this report could be abused to circumvent FHFA’s internal controls, it
has not been released publicly.
